Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




USAGE AND DOCUMENTATION OF
   HOME OXYGEN THERAPY




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 1999
                      OEI-03-96-00090
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia office prepared this report under the direction of Robert Vito, Regional
Inspector General, and Linda Ragone, Deputy Regional Inspector General. Principal OEI staff
included:

REGION                                       HEADQUARTERS

Robert Katz                                  Brian Ritchie, Program Analyst
Lauren McNulty                               Elise Stein, Program Specialist
Amy Sernyak                                  Bambi Straw, Program Specialist
                                             Barbara Tedesco, Mathematical Statistician
                                             Vanessa Blankenship
                                             James Grossman
                                             Paul Heineman
                                             Kimberly Hughes
                                             Candace Sullivan


 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                   EXECUTIVE SUMMARY

PURPOSE

      To determine if supplier documentation accurately reflects beneficiaries' medical need and
      reported use of home oxygen therapy.


BACKGROUND

      Medicare covers home oxygen therapy for beneficiaries diagnosed with significant
      hypoxemia (a deficiency in the amount of oxygen in the blood). Home oxygen therapy
      accounts for the largest share of Medicare payments for durable medical equipment.
      Medicare allowances for oxygen equipment totaled over $2 billion in 1997.

      Suppliers of home oxygen equipment submit claims to the Durable Medical Equipment
      Regional Carriers for processing and payment. According to Medicare guidelines, oxygen
      suppliers must submit Certificates of Medical Necessity with oxygen claims, and keep
      original CMNs in their records. Home oxygen CMNs must contain sufficient medical
      information, including diagnoses and results of laboratory tests, to establish that
      beneficiaries meet Medicare coverage requirements.

      For this inspection, we collected data from Medicare beneficiaries with paid claims for
      oxygen equipment in 1996 and the durable medical equipment suppliers who provided this
      equipment.


FINDINGS

Nearly one-quarter of oxygen Certificates of Medical Necessity were inaccurate or
incomplete.

While almost all beneficiaries used their stationary oxygen equipment, 13 percent
of beneficiaries reported never using their portable systems.

Suppliers reported providing services, but were unable to fully document all of
these services.




   Home Oxygen Therapy                         1                                    OEI-03-96-00090
RECOMMENDATIONS

To address the vulnerabilities identified in this report, we recommend that the
Health Care Financing Administration:

       Ensure that system edits in place at the DMERCs are able to identify incomplete
       CMNs, and delay payments for oxygen equipment claims until complete CMNs are
       submitted. The HCFA should also conduct periodic checks to ensure that original
       CMNs signed by beneficiaries’ physicians and kept on file by oxygen suppliers
       confirm the electronic versions of CMNs that suppliers submit to Medicare carriers.

       Target oxygen equipment claims for focused medical review. We realize that it would
       not be manageable or cost effective to perform extensive reviews on all oxygen equipment
       claims. However, we believe that our findings raise issues that can only be addressed
       through individual case review.

       Work to quickly establish specific service standards for home oxygen equipment
       suppliers as mandated by the Balanced Budget Act of 1997. As part of these
       standards, we believe that suppliers should be required to maintain adequate
       documentation to verify the provision of equipment and patient services.

       Continue to alert physicians to the critical role they play in determining
       beneficiaries’ medical need for and utilization of medical equipment paid for by
       Medicare. In a January 1999 Fraud Alert concerning physician certification of the need
       for medical supplies and services, our office emphasized that, by signing CMNs, physicians
       are attesting that information on the entire CMN is true, accurate, and complete to the
       best of their knowledge.


AGENCY COMMENTS

       We received comments on our draft report from HCFA. The full text of these comments
       can be found in Appendix C. A summary and our response follows.

HCFA Comments

       The HCFA concurred with all of our recommendations. They reported that current policy
       calls for DMERC systems to edit required fields on electronic CMNs for completeness.
       The HCFA also stated that the file copy CMNs the OIG reviewed are used primarily for
       suppliers’ own records, and therefore may be abbreviated and may not include all the
       information the suppliers submit electronically. Nevertheless, HCFA agreed they should
       make it clear to suppliers that file copy CMNs signed by physicians should contain all the
       information suppliers’ submit electronically.


    Home Oxygen Therapy                        2                                     OEI-03-96-00090
     Based on the information presented in our report, HCFA commented that portable oxygen
     systems might prove to be a fruitful target for focused medical review. The HCFA also
     indicated that they are planning to develop a regulation that will set service standards for
     home oxygen equipment suppliers.

     The HCFA also provided two technical comments. With respect to our finding that
     Medicare paid $263 million in 1996 for oxygen equipment covered by inaccurate or
     incomplete CMNs, HCFA stated this figure does not necessarily represent payments made
     for medically unnecessary or unreasonable services. The agency also believed it is
     important to clarify why laboratory reports did not confirm test results detailed on the
     CMNs, and to distinguish between test results recorded on CMNs that could not be
     supported by suppliers’ records and test results recorded on CMNs that differed from
     suppliers’ records.


OIG RESPONSE

     We appreciate HCFA’s positive response to our recommendations, and we concur with
     their proposed actions. We appreciate the fact that HCFA agreed to make it clear to
     suppliers that CMNs kept on file should contain all the information submitted
     electronically. While some suppliers may have retained only abbreviated versions of the
     CMN in their files, this practice is not in keeping with current policy. The DMERC
     Supplier Manuals require suppliers to keep the original CMN signed by the physician on
     file, along with any additional medical necessity information. This CMN must include all
     required information and be filled out completely and accurately. We believe, in most
     cases, the information from this file copy CMN is used to develop the final electronic
     version of the CMN that is submitted for claims processing. Therefore, in order to meet
     the requirements for coverage of oxygen therapy, file copies of the CMNs we reviewed
     should have been complete and accurate. As presented in this report, we did not always
     find this to be the case.

     In response to HCFA’s technical comments, we agree the $263 million for oxygen
     equipment supported by inaccurate or incomplete CMNs does not presuppose a finding of
     medically unnecessary services. Rather, this estimate represents services where suppliers
     did not provide us with the complete documentary support required for Medicare
     reimbursement. With regard to HCFA’s comments about laboratory test results, we have
     revised the relevant heading in the report. Our finding only relates to suppliers who
     provided laboratory test results for our review. When we report non-confirming test
     results, this refers only to laboratory tests where information from the actual lab report
     differed from information listed on the CMN.




  Home Oxygen Therapy                         3                                     OEI-03-96-00090
                             TABLE OF CONTENTS

                                                                                                                               PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Inaccurate and Incomplete Certificates of Medical Necessity . . . . . . . . . . . . . . . . . . . . 10


          Use of Oxygen Equipment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          Lack of Service Documentation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


APPENDICES


          A: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17


          B: Certificate of Medical Necessity for Home Oxygen (Form HCFA-484) . . . . . . . . . . 23


          C: Comments on the Draft Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24





      Home Oxygen Therapy                                          4                                                   OEI-03-96-00090
                           INTRODUCTION

PURPOSE

      To determine if supplier documentation accurately reflects beneficiaries' medical need and
      reported use of home oxygen therapy.


BACKGROUND

Medicare Payment Policies and Expenditures

      Home oxygen therapy accounts for the largest share of Medicare payments for durable
      medical equipment (DME). Medicare payments for oxygen equipment more than doubled
      between 1992 and 1996, increasing from about $900 million in 1992 to about $1.9 billion
      in 1996. Medicare allowances for oxygen equipment totaled over $2 billion in 1997.

      Medicare reimburses suppliers for home oxygen equipment based on monthly fee schedule
      allowances which vary by State. These monthly fee schedule allowances cover the oxygen
      equipment, oxygen contents including all refills, equipment set-up and maintenance, and
      patient training. During the period of our review, monthly fee schedule allowances were
      about $300 for stationary oxygen equipment rentals, and about $50 for portable oxygen
      equipment rentals. The 1997 Balanced Budget Act legislated oxygen fee schedule
      reductions totaling 30 percent, with a 25 percent cut effective January 1, 1998 and a
      further 5 percent cut effective January 1, 1999.

Medicare Coverage of Home Oxygen Therapy

      Section 1861 (S)6 of the Social Security Act authorizes Medicare coverage of home
      oxygen therapy. Medicare covers home oxygen therapy for beneficiaries diagnosed with
      significant hypoxemia (a deficiency in the amount of oxygen in the blood). This condition
      is usually associated with severe respiratory problems. Medicare beneficiaries may qualify
      for home oxygen therapy if 1) their ability to breathe is severely impaired, 2) laboratory
      tests demonstrate medical need for oxygen therapy, 3) the attending physician prescribes
      oxygen therapy, and 4) alternative treatment modalities have been tried or considered and
      deemed clinically ineffective.

      Oxygen delivery systems fall into two categories: stationary systems and portable systems.
      Beneficiaries may qualify for rental of stationary and/or portable oxygen systems.
      Stationary oxygen equipment includes oxygen concentrators, liquid systems, and gas
      systems. Oxygen concentrators are electrically powered machines which generate higher


   Home Oxygen Therapy                         5                                    OEI-03-96-00090
      concentrations of oxygen from room air. Gas and liquid oxygen systems administer
      oxygen directly from tanks or cylinders. Portable oxygen equipment includes small liquid
      cylinders and small gas tanks. These systems allow patients to perform activities away
      from their stationary units, including activities outside the home.

Medical Documentation

      Initial oxygen claims sent to the DMERCs must include a Certificate of Medical Necessity
      (CMN) for home oxygen therapy. Most suppliers submit claims and CMNs electronically.
      The CMN must contain sufficient medical information, including diagnoses and results of
      laboratory tests, to establish that the beneficiary meets coverage requirements. The CMN
      must be completed, signed, and dated by the ordering physician. According to Medicare
      guidelines, oxygen suppliers must submit appropriate CMNs with oxygen claims, and keep
      original CMNs in their records. The DMERCs revised the original home oxygen CMN
      (Form HCFA-484) and required suppliers to submit the revised version (Form HCFA-
      484.2) with claims after April 1, 1998. A copy of Form HCFA-484 is provided in
      Appendix B.

      Medicare requires documentation of hypoxemia, as demonstrated by the results of either
      an arterial blood gas test (PaO2 or PO2) or an oxygen saturation test (O2Sat). These tests
      measure the amount of oxygen in a patient’s blood. Arterial blood gas tests provide a
      more precise and reliable measurement. Medicare guidelines stipulate that arterial blood
      gas test results are preferred for documenting medical necessity.

      For coverage purposes, Medicare classifies beneficiaries into one of three groups
      depending on the results of arterial blood gas or oxygen saturation tests.

      Group I. Medicare covers home oxygen therapy if a patient’s arterial blood gas test result
      is at or below 55 mm Hg or their oxygen saturation test result is at or below 88 percent, at
      rest. Coverage is also available if the patient has higher blood gas levels at rest, but meets
      required levels during exercise or sleep. Physicians must re-certify beneficiaries in this
      group after 12 months of therapy, and suppliers must submit re-certification CMNs with
      oxygen claims for the 13th month of therapy.

      Group II. Coverage is available if a patient’s arterial blood gas test result is between 56
      and 59 mm Hg or their oxygen saturation test result equals 89 percent, and there is
      evidence of 1) dependent edema suggesting congestive heart failure, 2) pulmonary
      hypertension or cor pulmonale, or 3) erythrocythemia with a hematocrit greater than 56
      percent. Physicians must re-certify beneficiaries in this group if their oxygen therapy will
      continue beyond three months. Suppliers must submit re-certification CMNs containing
      new arterial blood gas or oxygen saturation test results with claims for the fourth month of
      therapy.




   Home Oxygen Therapy                          6                                      OEI-03-96-00090
      Group III. According to the Medicare Coverage Issues Manual Section 60-4, carriers
      must apply a “rebuttable presumption” of non-coverage for a patient with an arterial blood
      gas test result at or above 60 mm Hg, or an oxygen saturation test result at or above 90
      percent. Physicians must submit additional evidence to carrier medical reviewers to justify
      the medical need for oxygen therapy in order for Medicare to reimburse claims in this
      group. According to the Coverage Issues Manual, “HCFA expects few claims to be
      approved for coverage in this category.”


METHODOLOGY

Sampling

      We selected a stratified random sample of Medicare beneficiaries with paid claims for
      stationary and/or portable oxygen equipment. Beneficiaries were selected from a database
      containing 5 percent of home oxygen therapy claims paid by Medicare in 1996. The 5
      percent file was created from the 1996 HCFA Common Working File, which was 89
      percent complete at the time of sample selection.

      We designed a sample with three strata using two stratification criteria - total allowance
      and number of months of billings per beneficiary. Stratum 1 contains all beneficiaries in
      the 5 percent file whose total allowances for oxygen equipment were greater than $4500.
      Stratum 2 contains beneficiaries with 4 or more months of billings in 1996. Stratum 3
      contains beneficiaries with 3 or fewer months of billings in 1996. We selected a total of
      801 beneficiaries. After removing deceased beneficiaries identified through the Medicare
      Beneficiary Enrollment Database, our working sample contained 529 beneficiaries. A
      description of each stratum is presented in Table 1.

      Table 1. Beneficiary Sample Specifications

       Strata       Criteria                                    Population   Selected     Working
                                                                             Sample       Sample
       1            Total allowances per beneficiary > $4500       107         107           86
       2            Beneficiaries with $ 4 months of billings     24689        408           304
       3            Beneficiaries with # 3 months of billings     8499         286           139
       Total                                                      33295        801           529




   Home Oxygen Therapy                               7                                  OEI-03-96-00090
Data Collection and Analysis

      We collected data from Medicare beneficiaries and their suppliers from August 1997 to
      April 1998. The Survey Data Analysis (SUDAAN) software package was used to
      compute point estimates and corresponding 95 percent confidence intervals. We used
      sample beneficiaries’ claims for oxygen equipment to compute allowance totals. (Point
      estimates and confidence intervals for all statistics presented in the Findings of this report
      are provided in Appendix A.)

      It is important to note that the sampling unit for this inspection was the Medicare
      beneficiary; therefore, we cannot generalize supplier-specific data to the population of
      home oxygen suppliers. This information is only representative of the group of suppliers
      who provided oxygen to sample beneficiaries.

      Beneficiary data. We designed a telephone survey instrument to collect data from
      sample beneficiaries. Survey items focused on the types of oxygen equipment used,
      frequency and duration of daily oxygen use, portable system use, and frequency of supplier
      service visits. We completed telephone interviews with 303 of the 529 beneficiaries in our
      sample, a 57 percent response rate. Of non-respondents, 10 percent were beneficiaries for
      whom we could not find phone numbers, 18 percent could not be reached by phone after
      multiple attempts, 13 percent refused to participate, and 2 percent were beneficiaries for
      whom we had incomplete surveys. Based on beneficiary responses, we determined
      whether and to what extent beneficiaries were using their stationary and portable oxygen
      systems, and whether and how often beneficiaries received portable oxygen refills and
      equipment service visits from suppliers.

      Supplier and CMN Data. We developed a self-administered survey instrument for all
      suppliers who billed Medicare for sample beneficiaries’ oxygen therapy claims in 1996.
      We mailed 605 survey instruments to these suppliers. Many of the questions on the
      supplier survey mirrored those on the beneficiary survey, including questions about
      oxygen equipment and supplier services provided to sample beneficiaries. We requested
      that suppliers provide copies of sample beneficiaries’ oxygen CMNS, as well as lab reports
      showing arterial blood gas and/or oxygen saturation test results. Of the 605 surveys
      mailed, 91 percent (n=550) were completed and returned.

      Based on supplier survey responses, we determined the types of stationary and portable
      equipment provided to beneficiaries, and the number of portable oxygen refills and
      equipment service visits provided to beneficiaries. In almost all cases, suppliers submitted
      file copy CMNS rather than printouts of electronic transmission CMNS. After reviewing
      all CMNS submitted with each supplier survey, we identified the earliest dated CMN
      covering oxygen therapy provided in 1996. Herein, this CMN will be referred to as the
      review CMN. All review CMNS were original forms (HCFA-484) in effect prior to
      DMERC revision. We used the review CMN to complete a series of questions regarding



   Home Oxygen Therapy                           8                                      OEI-03-96-00090
   document completeness, test results and dates, equipment prescription and justification,
   and re-certification.

   After receiving completed supplier survey instruments, we selected a small sub-sample of
   26 suppliers for a follow-up documentation review. All of these suppliers indicated that
   they had provided portable oxygen refills and/or oxygen equipment service visits between
   January 1, 1996 and December 31, 1997. In a mail request, we asked these suppliers to
   submit documentation to support their portable refill activity and/or equipment service
   visits. Twenty-three of the 26 suppliers provided the requested materials. One supplier
   submitted only a partial response, which we excluded from our review. Finally, two
   suppliers did not respond to the mail request despite multiple attempts to secure requested
   documentation.

   This study was conducted in accordance with the Quality Standards for Inspections issued
   by the President’s Council on Integrity and Efficiency.




Home Oxygen Therapy                         9                                     OEI-03-96-00090
                                   FINDINGS

Nearly one-quarter of oxygen Certificates of Medical
Necessity were inaccurate or incomplete
      Twenty-three percent of the oxygen CMNS we reviewed had one or more of the following
      problems: incompleteness, non-confirming lab reports, and lack of justification for
      portable oxygen where portable claims were paid. Based on claims for oxygen services
      covered by these CMNS, we estimate that Medicare paid $263 million in 1996 for oxygen
      equipment covered by inaccurate or incomplete CMNS.

Fourteen percent of CMNS were incomplete

      According to Medicare guidelines, home oxygen CMNS must contain specific information
      to establish a beneficiary’s medical need for the benefit. If CMNS do not contain all of
      this information, Medicare payments should not be processed. However, 14 percent of
      CMNS had one or more required sections not completed. Incomplete sections included
      oxygen prescription date, length of need for oxygen therapy, name and address of provider
      performing qualifying tests, oxygen prescription, physician signature, and date signed by
      physician. About 48 percent of these incomplete CMNS were initial certifications for
      home oxygen therapy.

Some lab reports provided by suppliers did not confirm CMN test results

      Thirty percent of suppliers submitted actual lab reports corresponding to the arterial blood
      gas or oxygen saturation test results recorded on review CMNS. Of these suppliers who
      submitted actual lab reports, 27 percent submitted reports that did not confirm the test
      results recorded on CMNS. Many of these lab reports did not agree with the test
      condition reported on the review CMN. The test condition indicates the circumstances
      under which the arterial blood gas or oxygen saturation test was performed, such as “at
      rest,” “while sleeping,” “while exercising,” or “on oxygen.” Other lab reports did not
      match the test values or test dates reported on review CMNS.

      The agreement of actual lab reports with test results recorded on CMNS varies by type of
      qualifying test. While 33 percent of CMNS with pulse oximetry test results had non-
      confirming lab reports, 20 percent of CMNS with arterial blood gas test results had non-
      confirming lab reports. For CMNS with both pulse oximetry and arterial blood gas test
      results, only 10 percent had corresponding lab reports that did not confirm CMN results.




   Home Oxygen Therapy                         10                                    OEI-03-96-00090
Medicare paid for portable oxygen equipment not justified on CMNS

      Medicare reimbursed portable equipment claims for 23 percent of review CMNS that did
      not provide justification for portable oxygen equipment. In order for portable oxygen
      equipment to be covered during the period of our review, beneficiaries’ physicians must
      have prescribed a portable system and included a narrative justification of why the patient
      needed portable equipment on the CMN.


While almost all beneficiaries used their stationary oxygen
equipment, 13 percent of beneficiaries reported never using
their portable systems
Overall, beneficiaries were using stationary oxygen equipment as part of a
prescribed home oxygen therapy regimen

      Almost all beneficiaries used the stationary oxygen equipment paid for by Medicare, and
      most beneficiaries reported using these systems every day. Only 6 percent of beneficiaries
      reported that they did not use their stationary equipment every day (n=14). Twelve of the
      14 beneficiaries used oxygen concentrators, one used a stationary liquid system, and one
      used a stationary gas system. All but one of these beneficiaries reported using the
      stationary equipment a few times per week.

Thirteen percent of beneficiaries never used their portable oxygen equipment

      Thirteen percent of beneficiaries indicated that they had never used the portable oxygen
      equipment paid for by Medicare. We estimate that Medicare paid about $9.7 million in
      1996 for portable oxygen equipment that beneficiaries never used.

      Nearly one in five beneficiaries who did report using their portable oxygen equipment used
      the portable systems only two days per month or less. Nine percent of beneficiaries used
      their portable oxygen systems one day per month or less; another 10 percent of
      beneficiaries reported using their portable equipment one day every two weeks.
      Beneficiaries with gas portable systems used their portable equipment significantly less
      than beneficiaries with liquid portable systems, as shown in Table 2. Twenty-eight percent
      of beneficiaries with gas portable systems used the systems one day every two weeks or
      less, compared to only 8 percent of beneficiaries with liquid portable systems. Fifty-eight
      percent of beneficiaries with gas portable systems used the systems every day or a few
      days per week, while about 82 percent of beneficiaries with liquid portable systems used
      these systems every day or a few days per week.




   Home Oxygen Therapy                         11                                    OEI-03-96-00090
   Table 2. Frequency of Beneficiaries’ Portable Oxygen Use

       How Often Portable System Was Used:             Overall        Portable Gas1     Portable Liquid1
       Every Day                                        21 %              22 %               29 %

       Few days per week                                36 %              36 %               53 %
       One day per week                                 10 %              14 %                9%
       One day every 2 weeks                            10 %              17 %                2%
       One day per month or less                        9%                11 %                6%

       Never used portable system                       13 %               NA                 NA
   1
    Computations of use percentages by portable equipment type exclude beneficiaries who reported never
   using portable systems.



   Information gathered from suppliers may provide further evidence of beneficiaries’
   infrequent usage of their portable systems. About 22 percent of sample suppliers who
   billed for portable oxygen equipment in 1996 did not provide any refills for these portable
   systems between January 1, 1996 and December 31, 1997. We estimate that Medicare
   paid about $24 million in 1996 for portable equipment claims for which suppliers did not
   provide refills.

   As shown in Table 3, almost all of the suppliers who did not provide refills were providing
   gas portable systems to beneficiaries. Twenty-nine percent of gas portable suppliers
   reported that they did not provide any refills between January 1, 1996 and December 31,
   1997, while less than one percent of liquid portable suppliers did not provide any refills
   during the two-year period.


   Table 3. Portable Refills Provided By Portable System Supplied

       Whether Supplier Provided       Overall        Gas Portable    Liquid Portable    Supplied Both
       Portable Refills:                                 Only              Only             Types

       Provided Refills                 78 %             71 %              99 %              94 %

       Did Not Provide Refills          22 %             29 %               1%                6%




Home Oxygen Therapy                              12                                         OEI-03-96-00090
Suppliers reported providing services, but were unable to
fully document all of these services
Suppliers reported providing portable system refills and equipment service visits

      Suppliers who provided portable oxygen equipment refills were asked to report the
      number of refills they provided between January 1, 1996 and December 31, 1997. We
      confined our analysis of portable system refills to suppliers who provided oxygen to
      beneficiaries for the full two-year period of review. Suppliers who furnished gas portable
      systems reported providing a median of 23 refill tanks, or about one tank per month, to
      beneficiaries over this period. One of these suppliers reported providing 559 refill tanks to
      a beneficiary during this period; while, for seven cases, suppliers reported providing only
      one refill tank over the two-year period. Suppliers who furnished liquid oxygen systems
      reported refilling beneficiaries’ stationary tanks, from which portable units were
      replenished, a median of 51 times over the two-year period. The reported number of
      liquid system refills ranged from a minimum of zero to a maximum of 210.

      Suppliers were also asked to report how many times they sent an employee to subject
      beneficiaries’ homes to make sure that oxygen equipment was operating properly for the
      period January 1, 1996 to December 31, 1997. Again, we confined our review of
      equipment service visits to suppliers who provided oxygen to beneficiaries for the full
      two-year period. Suppliers reported providing a median of 13 equipment service visits to
      beneficiaries during this period, or about one visit every other month. The number of
      equipment service visits provided varied greatly from a minimum of zero visits to a
      maximum of 209 visits between January 1, 1996 and December 31, 1997.

Some suppliers were unable to provide documentation to support their reported
services

      We asked a small sub-sample of suppliers to submit documentation to support the refill
      activity they reported in our survey. These suppliers indicated when they completed the
      survey that they had documentation to support refill activity. The six sub-sample suppliers
      who provided liquid systems were able to fully document all refill activity. However, only
      42 percent of the 12 sub-sample suppliers who provided gas portable systems were able to
      fully document refill activity. Of the 58 percent that could not fully document the number
      of portable gas refills they reported in our survey, three suppliers documented over half of
      reported refills, and 4 suppliers documented only 50 percent or less of the reported refills.
      Two of the four suppliers in the latter group did not provide any documentation
      supporting the number of reported refills.




   Home Oxygen Therapy                         13                                     OEI-03-96-00090
   When asked to submit documentation supporting oxygen equipment service visits, only
   about 35 percent of sub-sample suppliers (8 of 23) were able to fully document these
   visits. Of those that could not fully document service visits, 7 suppliers documented 80
   percent or more of reported visits, 5 suppliers documented 54 to 68 percent of visits, and
   3 suppliers documented 50 percent or less of reported equipment service visits.




Home Oxygen Therapy                        14                                     OEI-03-96-00090
                          RECOMMENDATIONS

To address the vulnerabilities identified in this report, we recommend that the
Health Care Financing Administration:

       Ensure that system edits in place at the DMERCs are able to identify incomplete
       CMNs, and delay payments for oxygen equipment claims until complete CMNs are
       submitted. The HCFA should also conduct periodic checks to ensure that original
       CMNs signed by beneficiaries’ physicians and kept on file by oxygen suppliers
       confirm the electronic versions of CMNs that suppliers submit to Medicare carriers.

       Target oxygen equipment claims for focused medical review. We realize that it would
       not be manageable or cost effective to perform extensive reviews on all oxygen equipment
       claims. However, we believe that our findings raise issues that can only be addressed
       through individual case review.

       Work to quickly establish specific service standards for home oxygen equipment
       suppliers as mandated by the Balanced Budget Act of 1997. As part of these
       standards, we believe that suppliers should be required to maintain adequate
       documentation to verify the provision of equipment and patient services.

       Continue to alert physicians to the critical role they play in determining
       beneficiaries’ medical need for and utilization of medical equipment paid for by
       Medicare. In a January 1999 Fraud Alert concerning physician certification of the need
       for medical supplies and services, our office emphasized that, by signing CMNs, physicians
       are attesting that information on the entire CMN is true, accurate, and complete to the
       best of their knowledge.


AGENCY COMMENTS

       We received comments on our draft report from HCFA. The full text of these comments
       can be found in Appendix C. A summary and our response follows.

HCFA Comments

       The HCFA concurred with all of our recommendations. They reported that current policy
       calls for DMERC systems to edit required fields on electronic CMNs for completeness.
       The HCFA also stated that the file copy CMNs the OIG reviewed are used primarily for
       suppliers’ own records, and therefore may be abbreviated and may not include all the
       information the suppliers submit electronically. Nevertheless, HCFA agreed they should


    Home Oxygen Therapy                       15                                    OEI-03-96-00090
     make it clear to suppliers that file copy CMNs signed by physicians should contain all the
     information suppliers’ submit electronically.

     Based on the information presented in our report, HCFA commented that portable oxygen
     systems might prove to be a fruitful target for focused medical review. The HCFA also
     indicated that they are planning to develop a regulation that will set service standards for
     home oxygen equipment suppliers.

     The HCFA also provided two technical comments. With respect to our finding that
     Medicare paid $263 million in 1996 for oxygen equipment covered by inaccurate or
     incomplete CMNs, HCFA stated this figure does not necessarily represent payments made
     for medically unnecessary or unreasonable services. The agency also believed it is
     important to clarify why laboratory reports did not confirm test results detailed on the
     CMNs, and to distinguish between test results recorded on CMNs that could not be
     supported by suppliers’ records and test results recorded on CMNs that differed from
     suppliers’ records.


OIG RESPONSE

     We appreciate HCFA’s positive response to our recommendations, and we concur with
     their proposed actions. We appreciate the fact that HCFA agreed to make it clear to
     suppliers that CMNs kept on file should contain all the information submitted
     electronically. While some suppliers may have retained only abbreviated versions of the
     CMN in their files, this practice is not in keeping with current policy. The DMERC
     Supplier Manuals require suppliers to keep the original CMN signed by the physician on
     file, along with any additional medical necessity information. This CMN must include all
     required information and be filled out completely and accurately. We believe, in most
     cases, the information from this file copy CMN is used to develop the final electronic
     version of the CMN that is submitted for claims processing. Therefore, in order to meet
     the requirements for coverage of oxygen therapy, file copies of the CMNs we reviewed
     should have been complete and accurate. As presented in this report, we did not always
     find this to be the case.

     In response to HCFA’s technical comments, we agree the $263 million for oxygen
     equipment supported by inaccurate or incomplete CMNs does not presuppose a finding of
     medically unnecessary services. Rather, this estimate represents services where suppliers
     did not provide us with the complete documentary support required for Medicare
     reimbursement. With regard to HCFA’s comments about laboratory test results, we have
     revised the relevant heading in the report. Our finding only relates to suppliers who
     provided laboratory test results for our review. When we report non-confirming test
     results, this refers only to laboratory tests where information from the actual lab report
     differed from information listed on the CMN.


  Home Oxygen Therapy                         16                                    OEI-03-96-00090
                                                                                                   APPENDIX A


                         Estimates and Confidence Intervals

                                                                                                                       PAGE

TABLE 1.         Inaccurate or Incomplete CMNS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


TABLE 2.         Incomplete CMNS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


TABLE 3.         Actual Lab Reports and Test Results Recorded on CMNS . . . . . . . . . . . . . . . . . 18


TABLE 4. 	 Agreement of Actual Lab Reports With CMN Test Results 

           By Type of Qualifying Test . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


TABLE 5. 	 Source of Conflict Between Actual Lab Reports and Test 

           Results Recorded on CMNS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


TABLE 6.         Medicare Paid for Portable Oxygen Equipment Not Justified on CMNS . . . . . . . 19


TABLE 7.         Distribution of Beneficiaries By Stationary Equipment Use . . . . . . . . . . . . . . . . . 20


TABLE 8.         Beneficiaries Who Never Used Portable Oxygen Equipment . . . . . . . . . . . . . . . . 20


TABLE 9.         Distribution of Beneficiaries By Frequency of Portable Equipment Use . . . . . . . 20


TABLE 10. Frequency of Portable Equipment Use: Gas Portable Equipment . . . . . . . . . . . . 21


TABLE 11. Frequency of Portable Equipment Use: Liquid Portable Equipment . . . . . . . . . . 21


TABLE 12. Portable Oxygen Equipment Refills . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21


TABLE 13.	 Portable Equipment Refills and Equipment Service Visits Reported 

           By Suppliers, 2-Year Period . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


TABLE 14. Supporting Documentation: Portable Equipment Refills . . . . . . . . . . . . . . . . . . . 22


TABLE 15. Supporting Documentation: Equipment Service Visits . . . . . . . . . . . . . . . . . . . . 22





     Home Oxygen Therapy                                      17                                                OEI-03-96-00090
                                                                             APPENDIX A
Estimates and Confidence Intervals

       The tables below contain statistical estimates presented in the Findings section of this
       report. We used the Survey Data Analysis (SUDAAN) software package to compute
       percentages, means, medians, totals and confidence intervals. These estimates are
       weighted based on the stratified random sample design and are reported at the 95 percent
       confidence level.


Table 1.
                                Inaccurate or Incomplete CMNs

                                                        Point          95% Confidence Interval
                                                        Estimate
 Percent of Incomplete or Inaccurate CMNs               22.85%         18.96% - 27.01%
 Total Medicare Allowances in 1996 for Oxygen
 Equipment Covered by Incomplete or Inaccurate          $262,625,991   $205,904,911 - $319,347,071
 CMNs


Table 2.
                                          Incomplete CMNs

                                                        Percent        95% Confidence Interval
 Incomplete CMNs                                        13.56%         10.17% - 16.95%

 Incomplete Initial CMNs                                48.37%         34.89% - 61.85%


Table 3.
                   Actual Lab Reports and Test Results Recorded on CMNs

                                                        Percent        95% Confidence Interval
 Suppliers Submitted Actual Lab Reports                 29.83%         25.34% - 34.32%

 Actual Lab Reports Did Not Confirm Test Results        26.62%         18.72% - 34.52%
 Recorded on Review CMNs



Table 4.

    Home Oxygen Therapy                            18                                    OEI-03-96-00090
                                                                                          APPENDIX A

                                Agreement of Actual Lab Reports With

                                         CMN Test Results

                                     By Type of Qualifying Test*


                                                Percent of CMNs With                      95% Confidence
 Type of Test Recorded on CMN                   Non-Confirming Lab Reports                Interval
 Oxygen Saturation Test Only                    33.43%                                    22.61% - 44.25%
 Arterial Blood Gas Test Only                   19.65%                                    5.46% - 33.84%

 Both Test Types                                10.41%                                    0% - 24.62%

* Difference between percentages is significant at the 94% confidence level (p=0.0522).


Table 5.
                            Source of Conflict Between Actual Lab Reports
                                and Test Results Recorded on CMNs

                                                                            Number of Cases
           Test Condition                                                           25
           Test Values                                                              12
           Test Date                                                                 9
           Test Type                                                                 3

           Provider Performing Qualifying Test                                       1


Table 6.
                            Medicare Paid for Portable Oxygen Equipment
                                      Not Justified on CMNs

                                                          Percent                 95% Confidence Interval
 Review CMNs Without Portable Justification:              23.42%                  14.11% - 32.73%
 Portable Claims Paid                                     (n=24)




     Home Oxygen Therapy                               19                                           OEI-03-96-00090
                                                                                APPENDIX A


Table 7.
                  Distribution of Beneficiaries By Stationary Equipment Use

                                                              Percent      95% Confidence Interval
 Used Stationary Oxygen Equipment                             98.83%       97.61% - 100%

 Used Stationary Oxygen Equipment Every Day                   94.44%       91.36% - 97.52%
 Did Not Use Stationary Oxygen Equipment Every Day            5.56%        2.48% - 8.64%


Table 8.
                 Beneficiaries Who Never Used Portable Oxygen Equipment

                                                            Point          95% Confidence Interval
                                                            Estimate
 Percent of Beneficiaries Who Never Used Portable           13.46%         8.64% - 18.2.8%
 Equipment Reimbursed by Medicare                           (n=30)

 Total Medicare Allowances in 1996 For Portable             $9,734,960     $5,182,570 - $14,287,350
 Equipment Beneficiaries Never Used



Table 9.
             Distribution of Beneficiaries By Frequency of Portable Equipment Use


                                                    Percent              95% Confidence Interval
 Every Day                                          21.25%               15.25% - 27.25%

 Few Days Per Week                                  36.36%               29.28% - 43.44%
 One Day Per Week                                   10.44%               6.17% - 14.71%

 One Day Every 2 Weeks                              9.86%                5.43% - 14.29%

 One Day Per Month or Less                          8.63%                4.55% - 12.71%




    Home Oxygen Therapy                             20                                     OEI-03-96-00090
                                                                            APPENDIX A

Table 10.
                             Frequency of Portable Equipment Use:
                                   Gas Portable Equipment

                                                  Percent            95% Confidence Interval
 Every Day                                        22.41%             13.93% - 30.86%
 Few Days Per Week                                35.72%             26.02% - 45.42%

 One Day Per Week                                 14.27%             7.56% - 20.95%
 One Day Every 2 Weeks                            16.68%             9.08% - 24.28%

 One Day Per Month or Less                        10.92%             4.80% - 17.04%



Table 11.
                             Frequency of Portable Equipment Use:
                                 Liquid Portable Equipment

                                                  Percent            95% Confidence Interval
 Every Day                                        29.31%             17.31% - 41.31%

 Few Days Per Week                                53.43%             40.12% - 66.74%
 One Day Per Week                                 9.16%              1.83% - 16.49%

 One Day Every 2 Weeks                            2.02%              0% - 5.94%
 One Day Per Month or Less                        6.09%              0% - 12.73%


Table 12.
                              Portable Oxygen Equipment Refills

                                                       Point         95% Confidence Interval
                                                       Estimate
 Total Medicare Allowances in 1996 for Portable        $23,782,718   $17,051,620 - $30,513,816
 Equipment for which Suppliers Did Not Provide
 Refills




    Home Oxygen Therapy                           21                                   OEI-03-96-00090
                                                                                             APPENDIX A


Table 13.
                      Portable Equipment Refills and Equipment Service Visits
                               Reported by Suppliers, 2-Year Period

 Type of Service                                    Median             IQR*            Minimum          Maximum
 Gas Portable System Refills                        23.20              59.22           1                559

 Liquid Portable System Refills                     51.24              62.03           0                210
 Equipment Service Visits                           12.65              15.28           0                209

* The interquartile range (IQR) is the difference between the 25th and 75th percentiles in a distribution. It is a
measure of spread that discounts extreme cases, and is therefore insensitive to outliers.



Table 14.
                       Supporting Documentation: Portable Equipment Refills

 Degree To Which Reported Services Were                           Gas Portable                Liquid Portable
 Documented                                                       Refills                     Refills
 Fully Documented Services                                        5                           6
 Documented over 50 Percent of Services                           3                           0

 Documented 50 Percent or Less of Services                        4                           0
 Total                                                            12                          6



Table 15.
                        Supporting Documentation: Equipment Service Visits

          Degree To Which Reported Services Were                           Equipment Service Visits
          Documented
          Fully Documented Services                                        8

          Documented 80-96 Percent of Services                             7

          Documented 54-68 Percent of Services                             5
          Documented 25-50 Percent of Services                             3

          Total                                                            23




     Home Oxygen Therapy                                  22                                             OEI-03-96-00090
                                       APPENDIX B

                      Form HCFA-484





Home Oxygen Therapy         23              OEI-03-96-00090
                                                                      APPENDIX C


                      Comments on the Draft Report 


   In this appendix, we present in full the comments from the Health Care Financing
   Administration.




Home Oxygen Therapy                       24                                    OEI-03-96-00090
                           APPENDIX C




Home Oxygen Therapy   25        OEI-03-96-00090
                           APPENDIX C




Home Oxygen Therapy   26        OEI-03-96-00090
                           APPENDIX C




Home Oxygen Therapy   27        OEI-03-96-00090
